              OFFICE OF
              INSPECTOR
              GENERAL
              UNITED STATES POSTAL SERVICE




        Global Positioning System
     Technology for Highway Contract
                 Routes

                      Audit Report




                                        September 21, 2012
Report Number NL-AR-12-009
                                                                    September 21, 2012

                                              Global Positioning System Technology
                                                       for Highway Contract Routes

                                                          Report Number NL-AR-12-009




BACKGROUND:
This report presents the results of our       and inadequate data retention
audit on Global Positioning System            requirements were contributing factors.
(GPS) technology for highway contract         Consequently, the program was not
routes (HCR).                                 being used and had not achieved its
                                              intended results even though it cost at
The U.S. Postal Service initiated a GPS       least $1.6 million. We also determined
program for selected HCRs in                  the program could potentially include
November 2010 to have visibility of mail      additional routes; provide maximum use
during transport. The program required        of actionable reports with enhanced
that all ‗long-haul‘ routes (over 50 miles)   data analytics; use real-time alerts and
provide tracking information every 30         enhanced geo-fencing (or assigning
minutes during transport. As of April         geographical borders); and include fuel
2012, about 960 routes were included in       analysis and route optimization
the program. About $3.3 billion is spent      information. There are also opportunities
on all contracted highway transportation      for integration with existing systems for
per year.                                     enhanced transportation management.

Our objective was to assess the U.S.          WHAT THE OIG RECOMMENDED:
Postal Service‘s GPS strategies for           We recommended the Postal Service
contracted highway transportation             improve existing GPS functionality by
routes.                                       updating and reinforcing policies and
                                              procedures; improving the monitoring
WHAT THE OIG FOUND:                           and validation process to ensure
Opportunities exist for the                   supplier compliance; and reviewing and
Postal Service to improve and expand          updating standard system reports to
the use of GPS for HCRs. We found the         facilitate monitoring of supplier
GPS program was capturing limited data        compliance and performance. We also
and not providing useful reports for          recommended adding more HCRs and
highway transportation route                  reporting capabilities to include
management. This occurred because of          exception reporting, establishing
inadequate planning and                       adequate GPS data retention policies,
implementation and limited highway            and exploring an end-to-end GPS
transportation route contractor               platform with full-range functionality.
participation requirements. Additionally,
insufficient system reporting capabilities    Link to review the entire report
September 21, 2012

MEMORANDUM FOR:            DAVID E. WILLIAMS
                           VICE PRESIDENT, NETWORK OPERATIONS

                           SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT

                           JOSEPH CORBETT
                           ACTING CHIEF INFORMATION OFFICER
                            AND EXECUTIVE VICE PRESIDENT


FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations




SUBJECT:                   Audit Report – Global Positioning System Technology for
                           Highway Contract Routes
                           (Report Number NL-AR-12-009)

This report presents the results of our audit of Global Positioning System Technology
for Highway Contract Routes (Project Number 12XG015NL000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody J. Troxclair, director,
Transportation, or me at 703-248-2100.

Attachments

cc: Megan Brennan
    John T. Edgar
    Cynthia Mallonee
    Deborah Giannoni-Jackson
    Susan A. Witt
    Corporate Audit and Response Management
Global Positioning System Technology                                                                           NL-AR-12-009
 for Highway Contract Routes



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Existing Global Positioning System Program not Functioning as Intended ..................... 2

Future Global Positioning System Opportunities Should be Considered......................... 6

Recommendations .......................................................................................................... 8

Management‘s Comments .............................................................................................. 9

Evaluation of Management‘s Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 11

   Background ............................................................................................................... 11

   Objective, Scope, and Methodology .......................................................................... 11

   Prior Audit Coverage ................................................................................................. 13

Appendix B: Other Impact ............................................................................................. 15

Appendix C: Standard Reports of the Highway Contract Route Tracking Module ......... 16

Appendix D: Management‘s Comments ........................................................................ 17
Global Positioning System Technology                                                                      NL-AR-12-009
 for Highway Contract Routes



Introduction

This report presents the results of our audit of Global Positioning System (GPS)
Technology for Highway Contract Routes (HCRs) (Project Number 12XG015NL000).
Our objective was to assess the U.S. Postal Service‘s GPS strategies for HCRs. This
self-initiated audit addresses operational risk. See Appendix A for additional information
about this audit.

The Postal Service‘s transportation network includes nationwide transportation between
cities and major facilities. The Postal Service typically uses contracted highway
transportation (known as HCR transportation) with private contractors for this purpose.
Individual Postal Service areas typically control HCRs and Postal Service transportation
managers at the area and local levels are responsible for continually reviewing these
routes to balance on-time service standards with costs. There were over 15,500 HCRs
in fiscal year (FY) 2011, traveling about 1.6 billion miles at a cost of over $3.3 billion.

The Postal Service initiated a GPS program for selected HCRs in November 2010 to
have visibility of mail during transport. Under this GPS mandate, selected ‗long-haul‘
HCRs (routes traveling 50 miles or more) were required to provide certain GPS tracking
information every 30 minutes while hauling mail. The required GPS tracking data was
limited and included the supplier‘s name, route number, trip number, location, origin or
destination facility, action (status), date, and time. About 960 routes are included under
the GPS mandate.1

Conclusion

Overall, opportunities exist for the Postal Service to improve and expand the use of
GPS to provide visibility under its $3.3 billion HCR program. We found the GPS
program was capturing limited data primarily due to contractor non-compliance and, as
a result, was not providing useful reports for HCR management.2 This occurred
because of inadequate planning and implementation, limited HCR contractor
participation requirements,3 insufficient system reporting capabilities, and inadequate
data retention requirements. Consequently, the program was not being used and had
not achieved its intended results of providing mail visibility during transport, even though
the Postal Service spent at least $1.6 million on it.

1
  The 963 active GPS routes as of April 24, 2012, were extracted from the HCR Tracking Module. This number
fluctuates on a month-to-month basis, based on operational changes due to consolidations and adjustments,
termination of routes, and peak season.
2
  The Postal Service has stated that the system reports are not useful because the level of compliance has been low;
therefore, data has been very limited. They advised that they need to address the significant non-compliance issues
before they can address other system issues and ensure the system is used to its fullest capabilities.
3
  The Postal Service advised that the initial intent of the GPS program was to track mail while in-transit for contracted
routes traveling 50 miles or more (long-haul routes) and to look at expanding beyond those long-haul routes after the
system was functioning as intended. The Postal Service advised that they see the value of potential expansion of the
program to cover additional HCRs, but there is no plan to expand the program until compliance with the initial phase
significantly improves.

                                                            1
Global Positioning System Technology                                                                   NL-AR-12-009
 for Highway Contract Routes



Once compliance improves and the GPS program is operating as intended,
opportunities to expand the program will exist, including additional HCRs; providing
maximum use of customized and actionable reports with enhanced data analytics,
proactive real-time alerts, enhanced geo-fencing4 and actionable exception reporting;
and including fuel analysis and route optimization information. There is also the
opportunity to integrate the GPS with existing systems, such as Surface Visibility (SV)5
which would allow for validation of time and mileage on routes, reduction in the need for
route surveys, and enhanced scheduling and performance at Postal Service facilities.

Existing Global Positioning System Program not Functioning as Intended

The Postal Service‘s existing GPS capability and supporting infrastructure for HCRs is
limited in data and reporting capabilities primarily due to contractor non-compliance and
the program has not achieved its intended results more than 18 months after
implementation.6 Specifically, we found:

   The Postal Service did not adequately plan and implement the GPS program since it
    did not implement adequate controls to mitigate the potential impact of significant
    non-compliance by suppliers and to effectively monitor and ensure supplier
    compliance to meet program goals.

   The GPS program was intended to provide near real-time visibility of mail for
    long-haul transportation routes and; accordingly, covers less than 1,000 of the
    approximate 15,500 HCRs.

   Contractors are not consistently complying with GPS data reporting requirements
    resulting in incomplete tracking data and information.

   The GPS offers basic tracking functionality and offers standard reports and
    functionality could be maximized by using customized real-time, actionable data and
    reports in a user-friendly format.7

   The Postal Service‘s HCR data retention policies do not require maintenance of
    detailed data beyond 120 days for historical analyses and for future HCR planning,
    contract renewal, and contractual or legal challenges by contractors.

4
  A feature in a software program that uses the GPS or radio frequency identification to define geographical
boundaries. A geo-fence is a virtual barrier and geo-fence programs allow an administrator to set up triggers so that
when a device crosses a geo-fence and enters (or exits) the boundaries defined by the administrator, an alert is sent.
The Postal Service has stated that the current system provides a geo-fencing function that it can use to identify when
a truck enters a yard or is waiting for a dock door when they have complete and reliable tracking data. An expanded
function of geo-fencing is the use of alerts for entry to, or exit from, a zone along a transportation route.
5
  Scanner technology designed to capture real-time data at the handling unit, container, and trailer levels using mail
processing equipment and wireless hand-held scanners within Postal Service facilities.
6
  The Postal Service pointed out that the overarching issue is compliance, based on contract and operational issues,
such as service changes and detours.
7
  The Postal Service believes that the current system has the capability to provide real-time and actionable data and
reports, but has been dramatically hampered by the significant supplier non-compliance issues.


                                                          2
Global Positioning System Technology                                                                  NL-AR-12-009
 for Highway Contract Routes



Limited Planning and Implementation. The Postal Service did not develop an overall
strategic framework and operational plan for using GPS technology.8 When it designed
and implemented the program, the primary focus was to meet the basic stated goal of
locating mail in transit on long-haul HCRs. Further, the Postal Service did not develop
extensive and written GPS policies and procedures, define specific roles and
responsibilities for the program, provide effective training and re-training, or develop a
plan to specifically address GPS program issues (including compliance) after the
system was rolled out. We also found the Postal Service has not tracked supplier
GPS-related costs in summary and these total costs are unknown and are not being
monitored.9 Our review of 48 contracts under the GPS program identified one-time
set-up costs and recurring monthly service fees. We also found that some contracts,
identified as contracts falling under the GPS mandate, have no GPS requirement
language in the HCR contract, while others do not break out or identify GPS costs
separately.

Limited Number of HCRs in the Program. Although the Postal Service has over
15,500 HCRs, the scope of the GPS program was limited, with concentration on longer
haul transportation. Therefore, only the following four types of HCRs fell under the initial
phase of the program, as was intended:

   Inter-Cluster Routes — Long-haul transportation from one processing and
    distribution center to another.

   Hub and Spoke Operation (Surface Transfer Center) Routes — Long-haul
    transportation to and from mail consolidation and redistribution facilities.

   Inter-Network Distribution Center (NDC) Routes — Long-haul transportation from
    one NDC to another NDC.

   Mail Transport Equipment Center Routes – Long-haul transportation to and from
    centers designated to receive, store, ship, examine, sort, pack, and condemn mail
    transport equipment.

The intended GPS program scope limitation resulted in the existing GPS requirements
covering less than 1,000 out of more than 15,500 HCRs.

Lack of Contractor Compliance. Suppliers in the GPS program are required to supply
information along their transportation route every 30 minutes, including date, time, and
location information.10

8
  The Postal Service could research and perform benchmarking of best practices and identify the potential benefits of
comparing similar GPS programs, which could result in a system capable of providing more useful telemetric data
and one that operates utilizing a uniform platform.
9
  The Postal Service advised that, when the program was initiated and for contracts where the GPS requirement was
added mid-term of the contract, it needed to negotiate the cost (which is documented in each contract file). For
renewals and new awards, the cost for GPS is included in the offered rate and is not broken out. Supply Management
stated there is no requirement for them to track or monitor the HCR costs of the GPS program separately.


                                                          3
Global Positioning System Technology                                                                     NL-AR-12-009
 for Highway Contract Routes



As of January 2012, the following contractor compliance rates were identified:11

    Twenty-two percent of the routes were 90 percent or above compliant.
    Thirty-nine percent of the routes were between 50 and 89 percent compliant.
    Fifteen percent of the routes were between 1 and 49 percent compliant.
    Twenty-four percent of the routes were 0 percent compliant.

In addition, we found no documented evidence of monitoring and enforcement of the
95 percent compliance threshold. Further, the Postal Service has yet to address what
constitutes acceptable compliance. If a supplier provides any information on a specific
route, they are considered compliant.12

We determined that data gaps existed because the Postal Service has not actively
monitored or enforced HCR suppliers‘ compliance with reporting requirements or
developed a process to effectively address the significant gaps.13 Further, field
personnel are not tasked with monitoring performance or compliance with the GPS
mandate; therefore, a record of non-compliance is not maintained in the contract files.14

Limited Functionality and Reporting Capability. The Postal Service approved the
following six standard reports to enhance the visibility of mail while in-transit and
manage the GPS program:

    Current Trips Report.
    Past Trips Report.
    Supplier Performance Report.
    Facility Performance Report.
    Key Performance Indicators Report.
    Compliance Report.

With the exception of the Past Trips Report (which shows the movement and location of
a vehicle and leaves a detailed trail), the information in these reports for the intended
field users is redundant and is available through other Postal Service systems, such as


10
   The Postal Service started using an addendum to HCR contract terms and conditions around April 2011 for
contracts renewed or awarded after that date. The addendum states that ―[c]ompliance to the requirement must reach
a minimum of 95 percent success rate (accurate data transmitted to and received by the Postal Service).‖ No further
guidance was provided to HCR suppliers or Postal Service operational or contracting personnel as to the 95 percent
success rate.
11
   Management stated that the compliance rates are currently higher than they were in January 2012.
12
   The Postal Service stated that initial compliance reports measured whether there were any pings on a route. They
advised they will modify compliance reports to measure ‗expected‘ pings vs. ‗actual pings.‘
14
   All suppliers for whom the Postal Service contractor has email information on file receive a weekly compliance
report by default. Suppliers are able to opt in and receive an additional daily compliance report by request.
14
   The Postal Service stated that, based on the significant level of supplier non-compliance, it made the decision to
address contract non-compliance at the national level initially, although HCR performance issues are typically
monitored at the facility level. They advised that compliance monitoring will be transitioned to the field for monitoring
HCR performance measurements using the Contract Route Irregularity Report process.




                                                           4
Global Positioning System Technology                                                                       NL-AR-12-009
 for Highway Contract Routes


the Transportation Information Management Evaluation System and SV. See Appendix
C for more details on the ‗standard reports‘ available in the HCR Tracking Module.

Further, the Postal Service could maximize use of the GPS once compliance issues are
appropriately addressed and take advantage of enhanced exception reporting, which
could include dashboard functionality and the use of proactive alerts to allow the system
to serve as a surface transportation management tool. The HCR Tracking Module
contains a significant amount of data. As a result, the responsibility of identifying
exceptions/problems is placed on Postal Service plant supervisors, who are busy with
their daily duties. These types of reports, if actively used, would allow management to
focus on specific HCR supplier behavior, if needed.

In addition, reports which summarize HCR compliance over an extended period, such
as 30 days,15 are not available through the HCR Tracking Module and must be
requested as an ‗ad hoc‘ report through its contractor at an additional cost to the
Postal Service. Some Postal Service officials stated that the standard reports do not
present information in an actionable and summary (or dashboard) format.

Inadequate Data Retention. The Postal Service has not established adequate and
documented data retention policies for the HCR Tracking Module. GPS data transmitted
from suppliers is only retained in an active online status in the HCR Tracking Module for
120 days.16 The contractor and the Postal Service advised that the data retention period
was greatly influenced by the extremely large volume of data, noting that to store
120 days‘ worth of data would equal 30 million records. The lack of historical data
impacts the ability to use the data for trending, analysis, and long-range HCR planning
and route improvement. Further, short-term data retention may not address any
anticipated contract or legal actions that HCR suppliers may take in response to any
Postal Service contract action, including documenting an objective basis for their
decision as to why they took action against a particular supplier.17

Overall, we determined that the limited data collection, reporting capabilities, and data
retention impacted the effectiveness of the GPS program and resulted in end users
(mainly field transportation personnel) not using reports and tracking data to monitor the
movement of mail and improve the contracting process. Further, the Postal Service was
not able to provide any information on whether the HCR Tracking Module was being
used in the field by area and plant personnel. Our discussions with management at
headquarters revealed that the HCR Tracking Module, as designed, does not track
access to the ―module‖ itself. There was no information at the Postal Service to gauge
how the HCR Tracking Module was used, by whom and for what purpose, and how
often. The only information we were able to determine from Postal Service

15
   The Network Operations and Supply Management practice of reviewing HCR reporting compliance is to use a
30-day review period to obtain a reasonable pattern of HCR supplier reporting activity.
16
   They do have 2 years‘ worth of tables with status of trips stored, but no breadcrumb (geographical location trail
derived from ping transmission) details of trips by suppliers. It is possible to see up to 2 years of compliance, but no
ping data detail.
17
   The Postal Service is looking at its data retention of the HCR tracking data. They advised they are considering
requiring retention of the first and last record for 10 years and will archive the tracking data at a data warehouse.


                                                            5
Global Positioning System Technology                                                                   NL-AR-12-009
 for Highway Contract Routes


Headquarters was that about 245 people in the field were granted authorized access to
the HCR Tracking Module.

To assess whether the system was being used, we conducted an electronic survey of
the 245 field personnel with access to the HCR GPS Tracking Module.18 Of the
245 survey questionnaires we sent to authorized field system users, we received
102 responses.19 Our survey revealed that a majority of the ‗authorized users‘ of the
HCR Tracking Module in the field were not accessing the system or using the reports to
track mail or manage HCRs.20 Of the 102 users that responded:

    Ninety-five percent reported that they log into the HCR Tracking Module on occasion
     or never.

    Ninety-three percent indicated that they do not use any of the HCR Tracking Module
     reports.

    Ninety-three percent reported that they do not use the system to track mail, which
     was the primary intention of the program.

Overall, we concluded the Postal Service spent $1.6 million on implementing and
maintaining the HCR GPS initiative, which did not achieve its intended benefits by not
providing effective visibility into mail during long-distance transport.21 See Appendix B
for additional information about the monetary impact.

Future Global Positioning System Opportunities Should be Considered

Various opportunities exist to enhance GPS technology at the Postal Service for HCR
transportation. Once the GPS program is functioning as intended, the Postal Service
should consider expanding the number of HCRs in the program and developing an
end-to-end,22 single-source GPS platform and back-office accountability for enhancing
HCR planning and management. The single-source GPS platform could increase route
efficiency, improve service, and control contract costs by:

    Maximizing the use of customized, actionable reports augmented with available
     advanced data analytics with proactive real-time alerts, enhanced geo-fencing, and


18
   A separate report of the survey results was issued to Postal Service management Survey of System Users of the
Global Positioning System for Highway Contract Routes (Report Number NL-MA-12-001, dated August 14, 2012).
19
   In addition to the 102 responses, 12 respondents advised us via email that they have not used the HCR Tracking
Module or that their responsibilities have changed. We received a 46.5 percent response rate to our survey when
including these emails.
20
   The Postal Service explained that the field survey results on the use of the data and reports were impacted by low
supplier compliance based on contract and operational issues.
21
   The Postal Service believes that low supplier compliance and the resulting limited data significantly impacted
overall program results and the effectiveness of the program to date.
22
   An end-to-end platform would involve the Postal Service purchasing no equipment or incurring any up-front costs
and instead paying a monthly fee for generating reports, providing some analysis, and distributing the reports to the
Postal Service.


                                                          6
Global Positioning System Technology                                                               NL-AR-12-009
 for Highway Contract Routes


     actionable exception reporting on speed, fuel usage, and potential unproductive use
     of time.

    Incorporating the GPS as part of a larger technology solution.23

Further, since GPS is not a core function of the Postal Service — an expanded program
covering most HCRs and enhanced technological functionality — vendors could
manage this system, giving the Postal Service a greater ability to focus on its core
functions.

Reporting Opportunities. With enhanced reporting, the Postal Service could isolate HCR
supplier activities that may require referral for further management, contract, or
investigative activities. Management stated that ‗raw‘ GPS data alone is typically
insufficient for contract actions and other evidence and development are necessary.
With actionable, robust customized reports from GPS, augmented with advanced data
analytics, the Postal Service could easily identify ‗actionable exceptions‘ for follow-up
and resolution. These reports could include real-time alerts, enhanced geo-fencing and
actionable exception reporting on speed, fuel usage, and potential unproductive use of
time. These reports, coupled with outcome-oriented management, could increase the
visibility and efficiency of contracted surface transportation, reduce costs, and enhance
transportation management and contracting capacity.

Integrating GPS into Other Postal Service Tracking Processes. The Postal Service has
an opportunity to optimize its transportation data collection capabilities with enhanced
GPS capabilities. Specifically, it could expand visibility under the SV program. SV
technology was designed to capture real-time data at the handling unit, container, and
trailer levels using mail processing equipment and wireless handheld scanners within
Postal Service facilities. The SV system does not track mail during transportation and
only captures when transportation enters and leaves the facility. Enhanced GPS
capabilities would expand tracking opportunities for more efficient and effective
management. Those opportunities include:

    Validating mileage and estimated travel times used for contract negotiation
     purposes.

    Reducing the need to conduct HCR route surveys since actual route data would be
     available for the process.

    Enhancing scheduling and performance requirements at Postal Service facilities
     based on on-time performance data.

    Determining routes to explore for consolidation and route optimization.

23
  The Postal Service advised that there have been discussions between Network Operations and Information
Technology of opportunities to expand technology solutions using GPS data. One expanded solution currently being
explored is using GPS to more accurately capture trailer departures and arrivals.




                                                        7
Global Positioning System Technology                                                                       NL-AR-12-009
 for Highway Contract Routes



    Determining with greater accuracy supplier performance with regard to on-time
     performance and helping assist in resolving supplier disputes.

Other Opportunities. The Postal Service could also take advantage of other potential
benefits under a broad-based GPS program covering contracted transportation. GPS
contractors offer a wide range of services. Through research of GPS vendors,24 we
found they could provide hardware, installation, repairs, software, training, advanced
analytics, and exception reporting; and, if desired, an operations center. Either the
vendor providing the Postal Service with an end-to-end solution and all the required
reports for its contracted transportation fleet could manage it entirely or it could have
any degree of Postal Service involvement desired. As GPS is not a core transportation
function of the Postal Service, so this technology could be substantially outsourced and
require limited Postal Service involvement in its day-to-day management and
maintenance. This would allow the Postal Service to concentrate on contracted
transportation management and removing costs from the transportation network.

Recommendations

We recommended the vice president, Network Operations, in coordination with the vice
president, Supply Management:

1. Update and reinforce policies and procedures for the highway contract route Global
   Positioning System program with employees and suppliers, including re-training
   personnel as necessary and designating necessary resources at plants to ensure
   they have an understanding of their roles, responsibilities, and accountability.

2. Improve the monitoring and validation process for compliance to ensure the timely
   entry of all contract service changes in the field, termination of contracts not meeting
   compliance requirements, and the use of Global Positioning System compliance as
   criteria for future contract awards.

We recommend the vice president, Network Operations:

3. Continue to review and update the standard reports available in the Highway
   Contract Route Tracking Module so compliance and supplier performance can be
   monitored or reviewed without a contractor preparing special ‗ad hoc‘ reports.




24
   As reported in our prior GPS audit, we conducted research and discussions with four large GPS vendors who
indicated their ability to provide the required end-to-end functionality on a scale required by the Postal Service for its
fleet. See Global Positioning System: End-to-End Platform and Actionable, Robust Reports Needed to Achieve Goals
and Potential Return on Investment (Report Number DR-MA-11-003, dated September 30, 2011).


                                                            8
Global Positioning System Technology                                            NL-AR-12-009
 for Highway Contract Routes


We recommend the vice president, Network Operations, in coordination with the acting
chief information officer and executive vice president:

4. Expand the Global Positioning System (GPS) program to include additional highway
   contract routes where feasible and explore an end-to-end GPS platform using
   industry best practices that includes a full-range of functionality and reports covering
   applicable contracted transportation.

5. Re-evaluate data retention requirements of the Highway Contract Route Tracking
   Module, including the type of data retained, and for how long to include
   consideration of potential contract and legal challenges to actions taken resulting
   from non-compliance with the reporting requirements.

Management’s Comments

Management agreed with our findings and recommendations. They stated they will
distribute a policy letter and standard operating procedure by October 15, 2012, and will
schedule training to address GPS-related responsibilities by October 31, 2012. The
policy will address the timely entry of service change requests in the system;
compliance monitoring via the HCR Tracking Module; and the HCR performance
irregularity reporting process (PS Form 5500). Management stated that HCR Suppliers‘
roles, responsibilities, and accountability are addressed in the HCR contract terms (a
copy is attached to management‘s response). Management also stated they will include
an evaluation on GPS compliance to assess past performance in awarding contracts
requiring GPS starting after January 1, 2013.

Management stated that compliance reports have been made available in the HCR
Tracking Module to enable tracking by contract and supplier. Management also stated
that they will review the adequacy of current standard reports to identify additional
reports they can make available by November 15, 2012. Management further stated
they would review industry GPS platform best practices and make recommendations to
expand the program by January 15, 2013. Finally, management stated they would
review and finalize the plan for GPS data retention requirements (including type of data,
data retention timeframe, and storage/retrieval method) by November 30, 2012.
See Appendix D for management‘s comments. The attachment to management‘s
comments were excluded as it contained sensitive contract information.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General considers management‘s
comments responsive to the recommendations in the report.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the




                                             9
Global Positioning System Technology                                          NL-AR-12-009
 for Highway Contract Routes


Postal Service‘s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                           10
Global Positioning System Technology                                           NL-AR-12-009
 for Highway Contract Routes



                            Appendix A: Additional Information

Background

The Postal Service‘s transportation network includes nationwide transportation between
cities and major facilities. The Postal Service typically uses contracted highway
transportation (known as HCR transportation) with private contractors for this purpose.
Individual Postal Service areas typically control the HCRs and Postal Service
transportation managers at the area and local levels are responsible for continually
reviewing these routes to balance on-time service standards with costs. Highway (or
surface) transportation is the largest component of the Postal Service‘s transportation
network. There were over 15,500 HCRs in FY 2011, traveling about 1.6 billion miles at a
cost of over $3.3 billion.

The headquarters vice president, Network Operations, is responsible for nationwide
transportation strategy, design, development, policy, and optimization. Additionally, the
headquarters vice president, Supply Management, has acquisition authority for surface
transportation and is responsible for taking appropriate contract actions for contract
irregularities or performance issues. Individual Postal Service areas typically manage
the HCRs. Additionally, Postal Service transportation managers at the area and local
levels are responsible for continually reviewing these contracted routes to balance
on-time service standards with costs and ensure performance.

GPS Requirement. The Postal Service initiated a GPS requirement for selected
contracted transportation routes in November 2010 in order to have visibility of mail
during transport. Under this GPS mandate, selected long-haul contracted routes
(defined as routes traveling 50 miles or more) were required to provide certain GPS
tracking information every 30 minutes while hauling mail, including the location of the
vehicle. The GPS program provides the very basic function of identifying a truck‘s
location while hauling mail and captures the supplier‘s name, route number, trip
number, origin or destination facility, action, date, and time.

The Postal Service implemented this GPS program by allowing HCR suppliers to use
traditional GPS devices (in many cases existing GPS capabilities) or a cellular solution.
The program infrastructure was designed and implemented under a contract over the
past 2.5 years at a cost of over $1.6 million. In addition, the Postal Service agreed to
pay HCR suppliers on an ‗as needed‘ basis for any costs relating to implementation and
maintenance of the GPS devices or cellular solutions including a monthly air time fee.

Objective, Scope, and Methodology

Our objective was to assess the Postal Service‘s use of GPS technology on HCRs.
Specifically, we determined what GPS data and reports are presently available, how
and to what extent the Postal Service uses this information, and other potential benefits
leveraged from GPS technology to manage HCR contracts. To accomplish our



                                            11
Global Positioning System Technology                                                                   NL-AR-12-009
 for Highway Contract Routes


objective, we interviewed officials from Postal Service Network Operations and Supply
Management at headquarters, as well as its contractor. We evaluated the reports
available through the HCR Tracking Module. We also surveyed 245 ‗authorized users‘
in the field that had approved access to the HCR Tracking Module within Logistics
Condition Reporting System (LCRS) as to their involvement with using these reports.25
We reviewed HCR contracts, which contained contract reporting requirements and any
associated costs, such as paying for cell phone or monthly telephone service to support
the GPS tracking requirement. To identify any questioned costs, we examined and
analyzed relevant documents, including:

    Maintenance costs associated with the GPS portion of the LCRS contract for
     FY 2012.

    The two contracts covering the HCR Tracking Module – implementation and related
     invoices and payment documentation.

We conducted this performance audit from March through September 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 1, 2012. Management
requested the opportunity to provide additional comments on our observations and
conclusions, which were received on August 14, 2012, and we included their comments
where appropriate.

We identified numerous data integrity issues relating to the GPS data and the HCR
Tracking Module during this audit, which are in the results of review section of this
report.




25
   About 45 percent of authorized users in the field responded to our survey questions. We have completed our
analysis of the survey responses and a separate management advisory report on these survey results was issued. As
noted in the Prior Audit Coverage section, we address the results of the users‘ survey under the report titled, Survey
of System Users of the Global Positioning System for Highway Contract Routes (Report Number NL-MA-12-001,
dated August 14, 2012).




                                                         12
    Global Positioning System Technology                                           NL-AR-12-009
     for Highway Contract Routes


    Prior Audit Coverage

                                             Final
                                            Report      Monetary
 Report Title      Report Number              Date       Impact           Report Results
Survey of          NL-MA-12-001            8/14/2012      None      This management
System Users                                                        advisory communicated
of the Global                                                       the results of our
Positioning                                                         electronic survey of the
System for                                                          245 authorized field users
Highway                                                             of the GPS HCR Tracking
Contract                                                            Module. Accordingly, we
Routes                                                              did not make formal
                                                                    recommendations for
                                                                    implementation or require
                                                                    corrective action.
Global              DR-MA-11-003           9/30/2011     None      This report addressed our
Positioning                                                        assessment of the
System: End-                                                       Postal Service‘s use of
to-End                                                             GPS technology in its
Platform and                                                       Delivery Operations and
Actionable,                                                        other technological
Robust                                                             applications to identify
Reports                                                            additional opportunities in
Needed to                                                          Delivery and
Achieve Goals                                                      Transportation Operations.
and Potential                                                      Management generally
Return-on-                                                         agreed with the findings
Investment                                                         and recommendations in
                                                                   the report. Management
                                                                   stated that it put plans for
                                                                   expanding the GPS
                                                                   program in Delivery
                                                                   Operations on hold, due to
                                                                   the Postal Service‘s
                                                                   current financial situation.
                                                                   Management also stated
                                                                   they would continue to
                                                                   work with their vendor to
                                                                   improve the GPS program,
                                                                   in Delivery Operations, to
                                                                   maximize GPS with
                                                                   customized reports as
                                                                   necessary and feasible.
                                                                   However, management did



                                                   13
    Global Positioning System Technology                                                                  NL-AR-12-009
     for Highway Contract Routes



                                                   Final
                                                  Report           Monetary
 Report Title        Report Number                 Date             Impact                  Report Results
                                                                                     not agree with the potential
                                                                                     return on investment
                                                                                     opportunities.
Evaluation of          NL-AR-11-008             9/27/2011            None26          The report covered
Major                                                                                planning, implementation,
Transportation                                                                       functionality, and results of
Technology                                                                           four transportation
Initiatives                                                                          technology initiatives,
                                                                                     including the Postal
                                                                                     Vehicle Service
                                                                                     Management System
                                                                                     (PVS-MS). Management
                                                                                     generally agreed with the
                                                                                     findings and all
                                                                                     recommendations. The
                                                                                     Postal Service
                                                                                     implemented the PVS-MS
                                                                                     technology initiative to
                                                                                     monitor driver and fleet
                                                                                     performance, but lacked
                                                                                     the necessary connectivity
                                                                                     to function properly and
                                                                                     was discontinued in 2008.




    26
      The report did contain $9.3 million in questioned costs, but none of it related to the PVS-MS GPS tracking
    technology initiative.


                                                             14
Global Positioning System Technology                                                                 NL-AR-12-009
 for Highway Contract Routes


                                         Appendix B: Other Impact

               Recommendation                        Impact Category                       Amount

                        1, 2                     Disbursements at Risk27                 $1,678,650



Total other impacts include disbursements at risk made to the contractor under the
initial contract dated June 24, 2010, for $1,316,426 and for planning and deployment of
the GPS program. Additionally, it includes payments to the contractor for monthly
maintenance of the HCR Tracking Module from October 2011 through May 2012 for
$362,224.




27
     Disbursements made where proper Postal Service internal controls and processes were not followed.


                                                         15
Global Positioning System Technology                                           NL-AR-12-009
 for Highway Contract Routes


                Appendix C: Standard Reports of the Highway Contract
                               Route Tracking Module

The Postal Service engaged a contractor to assist in supporting the software
application, which is owned and managed by the Postal Service. The contractor
provides support services for the HCR Tracking System, such as making updates,
writing ‗ad hoc‘ reports as requested by the Postal Service, and providing Help Desk
functions to the user community (Postal Service and HCR suppliers). The ‗HCR
Tracking Module‘ is maintained in Eagan, MN, and the data is transmitted via cell phone
tracking solutions or traditional GPS devices directly to Eagan. The HCR Tracking
Module is in the Postal Service‘s LCRS.

The six standard reports in the HCR Tracking Module are:

   Current Trips Report: Displays all valid location data on a map along with current
    estimated time of arrival and relevant schedule information.

   Past Trips Report: Displays a breadcrumb trail of all valid pings submitted by an
    HCR supplier for a particular route.

   Supplier Performance Report: Displays the percentage of arrivals by supplier that
    are ‗Early,‘ ‗On Time,‘ ‗Late,‘ and ‗Critically Late.‘

   Facility Performance: Displays the percentage of arrivals and departures by facility
    that are ‗Early,‘ ‗On Time,‘ ‗Late,‘ and ‗Critically Late.‘

   Nationwide Key Performance Indicator: Displays the top five records in lane, facility,
    area, and supplier performance by categories by total number of late arrivals.

   Compliance Report: Lists trip segments the Postal Service did not receive data for,
    or for which the supplier has not submitted new data in over 1 hour.




                                            16
Global Positioning System Technology                          NL-AR-12-009
 for Highway Contract Routes


                          Appendix D: Management’s Comments




                                         17
Global Positioning System Technology        NL-AR-12-009
 for Highway Contract Routes




                                       18
Global Positioning System Technology        NL-AR-12-009
 for Highway Contract Routes




                                       19
